fi

suoame  (CQCKLE

: E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B tiefs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site

(402) 342-2831

www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-465 and 19-518

PETER BRET CHIAFALO, LEVI JENNET GUERRA,
AND ESTHER VIRGINIA JOHN,
Petitioners,

v.

STATE OF WASHINGTON,

Respondent.

COLORADO DEPARTMENT OF STATE,
Petitioner,
v.
MICHEAL BACA, POLLY BACA,
AND ROBERT NEMANICH,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICUS
CURIAE VINZ KOLLER IN SUPPORT OF PRESIDENTIAL ELECTORS in the above entitled
case complies with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in
New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this brief
contains 7234 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d), as

needed.

Subscribed and sworn to before me this 9th day of March, 2020.
Iam duly authorized under the laws of the State of Nebraska to administer oaths.

CS Loos Qudrawh, Ole

My Comm. Exp. September 5, 2023 ee
Affiant 30424

     

Notary Public
